UNITED STATES SUPREME COURT
Lynn Z. Smith
294A Malvern Court East
Lakewood, New Jersey 08701
In re:

LYNN Z. SMITH,
On Appeal from: 3-18-cv-14955
Chapter 13 - Case #17-34862 (MBK)
Court of Appeals Docket # 19-1945

CERTIFICATION OF SERVICE
SUPPLEMENTAL BRIEF
Lynn Smith, of full age, hereby certifies as follows:
I am the petitioner in this matter.
I submit this certification that on October 22, 2020 or the latest October
23, 2020 a postal stamped envelope with my Supplemental Brief will be
forwarded to the parties named below.
Party
Andrea Dobin, Esq.
McManimon Scotland & Baumann
427 Riverview Plaza
Trenton, NJ 08611
DATED: October 22, 2020

